Office of Inspector General  



      Semiannual Report
       to the Congress
           Covering the Period
    October 1, 2009 to March 31, 2010




FEDERAL MARITIME COMMISSION
                              FEDERAL MARITIME COMMISSION
                                   Washington, DC 20573


                                          April 29, 2010

Office of Inspector General



Dear Chairman Lidinsky:

        The attached report is submitted in accordance with Section 5 of the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of Inspector General (OIG)
for the period October 1, 2009, to March 31, 2010. The Act requires that you transmit the report
to the appropriate Congressional committees within 30 days of receipt. Your transmittal should
also include any comments you consider appropriate and other statistical tables and reports
required by law.

        During this period the OIG issued five audits / evaluations of FMC programs or activities
and two draft reports to management, and began planning two new evaluations. Also during this
reporting period, the OIG processed 27 complaints and two Freedom of Information Act (FOIA)
requests. Of the 27 complaints received, we forwarded 22 complaints to the appropriate FMC
program office for disposition. The five remaining complaints were referred to other OIGs with
jurisdiction or assigned to OIG staff. The OIG opened no new investigations and referred no
matters to prosecutorial authorities during the period.

        In addition to these audit and investigative activities and outcomes, the OIG revised
Commission Order 106, Audit Followup, to reflect statutory changes in the Inspector General
Reform Act of 2008 and the recent agency reorganization. We signed a Memorandum of
Understanding with a sister OIG to provide counsel support to that office, developed a new OIG
poster to display on agency billboards, revised the OIG’s informational brochure provided to
new hires and posted to the OIG’s webpage and, together with the agency’s new managing
director, instituted quarterly meetings to enhance communication between our respective offices
and to discuss pending audits and issues of common concern. The OIG audit function was “peer
reviewed” by OIG staff at the U.S. Capitol Police. The review concluded that my office has an
effective quality control system and that policies, procedures and applicable government auditing
standards are being followed.

        With your personal assistance, the OIG hired Ms. Venetia Bell to be OIG Counsel and
Chief Investigator for the office. Ms. Bell has already made a positive impact in the office and in
the Inspector General community.
       As in the past, management has been responsive in attempting to implement all OIG
recommendations. I appreciate management’s support and I look forward to working with you in
our ongoing efforts to promote economy and efficiency in agency programs.



                                                  Respectfully submitted,




                                                  Adam R. Trzeciak
                                                  Inspector General

Enclosure




                                            -2-
                                                 TABLE OF CONTENTS

Transmittal Letter
 
EXECUTIVE SUMMARY ............................................................................................................ 1

BACKGROUND ............................................................................................................................ 2

AUDITS/EVALUATIONS............................................................................................................. 3 
    Summary of Audits Issued During the Current Period ............................................................... 4
    Draft Audit Reports with Management....................................................................................... 7
    Planned Audits ............................................................................................................................ 7

INVESTIGATIVE ACTIVITIES ................................................................................................... 8

OTHER OIG ACTIVITIES ............................................................................................................ 8

SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS .......................... 13 
    TABLE I – Inspector General Issued Reports with Questioned Costs ..................................... 14
    TABLE II- Inspector General Issued Reports with Recommendations that Funds be Put to
    Better Use.................................................................................................................................. 15
        Inspector General’s Semiannual Report to Congress


                                EXECUTIVE SUMMARY 

       This Semiannual Report to the Congress summarizes the activities and accomplishments
of the Federal Maritime Commission (FMC or Commission), Office of Inspector General (OIG),
for the period October 1, 2009, through March 31, 2010. During this period we issued five
audits/evaluations of FMC programs or activities, two draft audit reports, and began two
additional audits of agency operations.

       Also during this reporting period, the OIG received 27 complaints and two Freedom of
Information Act requests. Of the 27 complaints received, we forwarded 22 complaints to the
appropriate FMC program area for disposition and assigned five complaints to OIG staff or
referred them to other federal agency OIGs or programs with jurisdiction over the subject of the
complaint. The OIG responded to two Freedom of Information Act (FOIA) requests, one of
which included responsive documents with suggested redacted material that was provided to the
FMC FOIA officer. The OIG opened no new investigations and referred no matters to
prosecutorial authorities during the period.

       In addition to these audit and investigative activities and outcomes, the OIG revised
Commission Order 106, Audit Followup, to reflect statutory changes in the Inspector General
Reform Act of 2008 and a recent agency reorganization.         We signed a Memorandum of
Understanding with a sister OIG to provide counsel support, developed a new OIG poster to
display on agency billboards, revised the OIG’s informational brochure provided to new hires
and posted it to the OIG’s webpage and, together with the agency’s new managing director,
instituted quarterly meetings between our respective offices to enhance communication and to
discuss pending audits and issues of common concern.

       Finally, the OIG underwent a peer review of its audit quality assurance program. The
objectives of the review were to determine whether an effective quality control system has been
established within the OIG and if policies, procedures and applicable government auditing
standards are being followed. The review resulted in an “unqualified” opinion.

       October 1, 2009 – March 31, 2010                                          Page 1
        Inspector General’s Semiannual Report to Congress

                                     BACKGROUND 

       The FMC is an independent agency responsible for the regulation of ocean-borne
transportation in the foreign commerce of the United States. The principal statutes or statutory
provisions administered by the Commission are the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998; the Foreign Shipping Practices Act of 1988; and Section
19 of the Merchant Marine Act of 1920.

       The FMC is headed by five Commissioners nominated by the President and confirmed by
the Senate, each serving five-year terms. The President designates one of the Commissioners to
serve as Chairman. The Chairman is the Chief Executive Officer for the Commission. For
Fiscal Year (FY) 2010, the Commission was appropriated $24.1 million to fund 129 full-time
equivalent positions.

       Although the majority of the Commission’s personnel are located in Washington, D.C., it
also maintains a presence in Los Angeles, Seattle, New York, New Orleans, Houston and South
Florida, through area representatives who serve the major ports and transportation centers within
their respective geographic areas. In addition, one at-large area representative operates from
Washington, D.C.

       The FMC/OIG was established in 1989 as required by the Inspector General Act
Amendments of 1988 (5 U.S.C. app.). The OIG is an independent audit and investigative unit
headed by an Inspector General (IG) who reports directly to the FMC Chairman. To aid the
FMC in accomplishing its mission, the OIG was provided three full-time staff and a budget of
$762,270 for FY 2010.

        The OIG is responsible for conducting audits and investigations relating to the programs
and operations of the FMC. Audits are conducted for the purpose of finding and preventing
fraud, waste and abuse, and promoting economy, efficiency and effectiveness within the agency.
OIG investigations seek out facts related to allegations of wrongdoing on the part of FMC
employees and individuals, or entities having contracts with, or obtaining benefits from, the

       October 1, 2009 – March 31, 2010                                           Page 2
        Inspector General’s Semiannual Report to Congress

agency. The Inspector General Act provides that the OIG shall have access to all agency records
and may subpoena records from entities outside of the agency in connection with an audit or
investigation.

       The IG is required by law to prepare a report summarizing OIG audits and investigations
during the immediately preceding six-month period. The report is sent to the FMC Chairman,
the President of the Senate, the Speaker of the House and FMC’s appropriating and authorizing
committees. This dual reporting requirement facilitates and helps to ensure the independence of
the Office.


                                 AUDITS/EVALUATIONS 

       During this semiannual period, the OIG issued an audit of the FMC’s FY 2009 financial
statements and a companion report to management on financial-related findings and
recommendations resulting from the audit. We also issued an evaluation of information security
pursuant to the Federal Information Security Management Act (FISMA), an audit of document
scanning services and a review of contract management of one large information technology (IT)
contract by the Office of Information Technology. The OIG also issued two draft reports to
management for review and comment concerning agency computation of user fees and a
“capping report” (i.e., summary report) on agency time and attendance policies and procedures,
and began planning reviews of the FMC’s Office of Consumer Affairs and Dispute Resolution
Services and the IT Help Desk.




       October 1, 2009 – March 31, 2010                                         Page 3
        Inspector General’s Semiannual Report to Congress

                                  Issued Audits and Reviews

Audit Report Number                                          Subject of Audit

       A10-01                                Audit of the FMC’s Financial Statements for the
                                             Fiscal Years Ended September 30, 2009, and
                                             September 30, 2008

       A10-01A                               Management Letter to the FY 2009 Audited
                                             Financial Statements

       A10-02                                Evaluation of the Federal Information Security
                                             Management Act for FY 2009

       A10-03                                Audit of the Oversight of Document Scanning
                                             Services in the Office of the Secretary

       OR10-01                               Review of Contract Monitoring in the Office of
                                             Information Technology


                Summary of Audits Issued During the Current Period 

       In A10-01, Audit of the Federal Maritime Commission’s Financial Statements for the
Fiscal Years Ended September 30, 2009 and September 30, 2008, the objective was to opine on
whether the agency’s financial statements follow Generally Accepted Accounting Principles and
present fairly the financial position of the agency. The statements audited were the Balance
Sheets as of September 30, 2009 and 2008, and the related Statements of Net Cost, Statements of
Changes in Net Position, Statements of Budgetary Resources, Statements of Financing and
Statements of Custodial Activity, for the years then ended. This was the sixth consecutive year
that the FMC prepared financial statements for audit. As in the five prior years, the agency
received an unqualified opinion, the highest opinion given by independent auditors.

       The FY 2009 audited statements provide insight into the mission and operations of the
agency. The FMC has a single source of funds, Salaries and Expenses, funded by an annual
appropriation that is available for commitments and obligations incurred during the fiscal year in


       October 1, 2009 – March 31, 2010                                            Page 4
        Inspector General’s Semiannual Report to Congress

which the authority was granted. The FMC’s total new budget authority for FY 2009 was
$22,800,000. This represents a net increase in budget authority of $728,000 over FY 2008. Of
total authority, 70 percent went to salaries and benefits. Although the FMC collects remittances
for user fees and penalties, the agency is not authorized to offset any of its budget authority by
utilizing these funds. The collections are deposited directly into the Treasury General Fund, and
captured in the Statement of Custodial Activity.

       As part of the audit, the OIG reviewed and tested the Commission’s compliance with
laws and regulations. The review disclosed no instances of noncompliance that are required to
be reported under Government Auditing Standards (GAS) or Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements and M-08-24,
Technical Amendments to OMB Bulletin No. 07-04. In addition, the OIG review of compliance
with the Federal Financial Management Improvement Act (FFMIA) of 1996 did not disclose any
material instances of noncompliance by FMC’s financial management systems with FFMIA,
GAS or OMB.

       The OIG review of internal control over financial reporting did not find any matters
involving the internal control over its operations that were considered material weakness in the
systems and processes we tested. On the other hand, the OIG did identify vulnerabilities in
agency financial and procurement practices that warranted some corrective actions.          These
findings, presented in A10-01A, FY 2009 Management Letter to the Financial Statements,
involved accounting and finance-related issues.     Most notably, the OIG found that agency
program officials risk unauthorized commitments and anti-deficiency violations by signing
purchase orders after the commencement of services. In all of the unauthorized commitments,
the agency received services without a valid obligating document in place, putting the vendor,
the Contracting Officer’s Technical Representative (COTR) and the agency at risk.

       In A10-02, Evaluation of the Federal Information Security Management Act for FY
2009, the objectives were to (1) assess compliance with FISMA and related information security



       October 1, 2009 – March 31, 2010                                           Page 5
        Inspector General’s Semiannual Report to Congress

policies, procedures, standards and guidelines; (2) perform an external network scan from an IP
(Internet Protocol) address outside FMC to identify vulnerabilities that would permit
unauthorized access to agency resources and databases (open ports, missing patches, default or
missing passwords, etc.); (3) review management actions to implement prior-year OIG
recommendations; and (4) evaluate the effectiveness of the work completed by the OIT
contractors.

       The evaluation found that the FMC has taken concrete steps to protect the agency’s
systems –most important is the accreditation of its Network and SERVCON applications - and
has made progress in mitigating weaknesses which led to the prior year’s significant deficiency
concerning IT risk and recovery planning. The firewall is secure; attempts to penetrate firewall
defenses by the evaluation team from a remote location were unsuccessful.

       On the other hand, the FMC lacks (i) a comprehensive configuration management
program and technical privacy controls required by OMB, (ii) an adequate Contingency Planning
Program, to include policies, procedures, testing and documentation of testing, and (iii) an
official system inventory. Further, the FMC Network Domain Administrator accounts are not
monitored. Most importantly, two systems currently in production have not been certified and
accredited.

       In OR10-01, Review of Contract Monitoring in the Office of Information Technology,
the OIG focused primarily on contract requirements, oversight and deliverables. Over three fiscal
years (2007 through 2009) the agency paid the contractor $513,000 to build databases and
applications that share and process data, provide technical advice and develop technical
requirements, and provide system software maintenance, materials and equipment.

       When fully functional, the database would reduce manual processes and enhance
document processing speed and accuracy. Although the current applications utilize similar
technical specifications, we found little or no communication between the applications, and staff
expectations for a technology-based regulatory toolset have not been met. The OIG identified


       October 1, 2009 – March 31, 2010                                           Page 6
        Inspector General’s Semiannual Report to Congress

the following major contributing factors as to why this contract has yet to meet staff
expectations:

   •   Non-specific requirements and deliverables in the Statement of Work.
   •   Applications placed into production before fully developed and FISMA compliant.
   •   Contractor status reports lacked specificity that would enable the COTR to recognize
       potential problems.
   •   Routine technical design changes to the front and back ends of systems, some of which
       were already in production. Developers unable to work with one approved design
       document.
   •   Significant time spent on maintenance rather than development. Systems in production
       suffered implementation issues that had to be addressed by developers, reducing the time
       they could devote to completing applications and databases.



                          Draft Audit Reports with Management 

       During the reporting period, the OIG issued two reports to management for comment:
(1) Review of User Fee Calculations. This report analyzed the methodology behind user fees for
agency activities that convey special benefits to recipients beyond those accruing to the general
public; and (2) Best Practices for Time and Attendance Implementation. This report summarizes
reviews performed in six FMC bureaus and offices during the prior reporting period, indentifying
procedures that appeared to efficiently set controls over time and attendance abuse and erroneous
reporting.

                                       Planned Audits 

       The OIG has initiated planning activities for an evaluation of the Office of Consumer
Affairs and Dispute Resolution Services (CADRS) and the agency’s IT Help Desk services. The
objectives for the CADRS review are to (i) document CADRS’ mediation activities, including
training, staff development and certifications; (ii) identify users of mediation services and how
CADRS promotes its mediation services to consumers and the shipping industry; (iii) evaluate
       October 1, 2009 – March 31, 2010                                           Page 7
        Inspector General’s Semiannual Report to Congress

how CADRS tracks complaints and reports outcomes for its consumer affairs mission; and (iv)
assess the relationship between CADRS’ dual consumer affairs and alternative dispute resolution
missions. The survey of Help Desk services will assess staff satisfaction with Help Desk
timeliness and assistance, and evaluate tools used by Help Desk staff to assign, track and follow
up with customer complaints.


                           INVESTIGATIVE ACTIVITIES 

       The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning possible allegations of fraud, waste and abuse
occurring within FMC programs and operations. Matters of possible wrongdoing are referred to
the OIG in the form of allegations or complaints from a variety of sources, including FMC
employees, other government agencies and the general public.

       During this reporting period, the OIG received 27 complaints and two Freedom of
Information Act (FOIA) requests. We forwarded 22 complaints to the appropriate FMC program
area for disposition and five complaints were assigned to OIG staff or referred to other federal
OIGs or programs with jurisdiction over the subject matter of the complaint. The OIG responded
to the two FOIA requests, one of which included responsive documents with suggested redacted
material that was provided to the FMC FOIA officer .


                               OTHER OIG ACTIVITIES 

                                     Review of Legislation

       As required by the Inspector General Act of 1978, as amended, the Office of Inspector
General routinely reviews proposed legislation and regulations. The purpose of these reviews is
to assess whether the proposed legislation or regulation (1) impacts the economy and efficiency
of FMC programs and operations, and (2) contains adequate internal controls to prevent and
detect fraud and abuse. During this period, the OIG reviewed various proposals to provide
inspectors general with testimonial subpoena authority and to provide ombuds services to
whistleblowers under the Whistleblower Protection Enforcement Act of 2009.

       October 1, 2009 – March 31, 2010                                           Page 8
         Inspector General’s Semiannual Report to Congress

        The OIG also reviewed a number of Commission Orders / policy guidelines and
suggested revisions where appropriate. Notably the OIG revised an internal Commission Order,
concerning audit follow-up.

             Council of Inspectors General on Integrity and Efficiency Activities

        The Council of Inspectors General on Integrity and Efficiency (CIGIE) was established
by law as an independent entity by the Inspector General Reform Act of 2008 (P.L. 110-409) to:

    •   address integrity, economy and effectiveness issues that transcend individual Government
        agencies; and
    •   increase the professionalism and effectiveness of personnel by developing policies,
        standards, and approaches to aid in the establishment of a well-trained and highly skilled
        workforce in the office of inspectors general.

        The CIGIE is comprised of all inspectors general whose offices are established under
section 2 or section 8G of the Inspector General Act of 1978, i.e., those that are Presidentially-
appointed / Senate confirmed and those that are appointed by agency heads (designated federal
entities), respectively.

        The OIG remains active on several CIGIE committees. The IG serves on the CIGIE
Integrity Committee (IC) and the Legislation Committee (LC). The IC is charged with receiving,
reviewing, and referring for investigation, where appropriate, allegations of administrative (non-
criminal) misconduct against inspectors general and designated senior staff members of the OIG.
The IC's memberships consists of the Federal Bureau of Investigation's representative to the
CIGIE, who serves as Chairperson of the IC; the Special Counsel of the Office of Special
Counsel, the Director of the Office of Government Ethics; and four federal inspectors general.

        The LC is a centralized point-of-contact and liaison for CIGIE to ensure regular and
ongoing communication with Congressional committees, committee staff and Government
Accountability Office regarding issues of common interest. The LC provides input to, and
receives feedback from, the Congress on legislation affecting the IG community as a whole.
        October 1, 2009 – March 31, 2010                                          Page 9
        Inspector General’s Semiannual Report to Congress

       The Assistant Inspector General for Audits (AIGA) is active in the Federal Audit
Executive Council, comprised of senior audit staff from agency OIGs that discuss and coordinate
issues affecting the Federal audit community. This reporting period, the AIGA also served on
the Improper Payment / Forensic Accounting and Auditing Workgroup – which provides
recommendations to the Director of the Office of Management and Budget (OMB) and the
Secretary of the Treasury on actions that agencies should take, or controls they should enhance
or implement, to more effectively prevent, detect and correct improper payments.

       The OIG Counsel/Chief Investigator participates in the Council of Counsels to the
Inspector General (CCIG) activities. The CCIG consists of senior counsel from agency OIGs
who discuss various legal issues that affect the OIG community. Counsel also serves on a CIGIE
review of hotline best practices used by OIGs. Based, in part, on this participation, the OIG
implemented a new hotline tracking system.

       Also, during the reporting period, pursuant to the IG Reform Act, OIG entered into a
Memorandum of Understanding with the Architect of the Capitol OIG to provide that office with
legal services on a reimbursable basis.

                                          Peer Review Activities

       Federal Offices of Inspector General are required by the IG Act to have a peer review
performed on their organization once every three years. These reviews are to be performed only
by federal auditors. A committee of the CIGIE schedules the review to ensure that resources are
available to perform them and that OIGs do not conduct reciprocal reviews.

       The objectives of a peer review are to determine for the audit function whether an
effective quality control system has been established in the office and if policies, procedures and
applicable government auditing standards are being followed.

       Against this background, the FMC/OIG was reviewed by the inspector general and staff
from the U.S. Capitol Police (CP) OIG. In the opinion of the CP/IG, the system of quality

       October 1, 2009 – March 31, 2010                                            Page 10
        Inspector General’s Semiannual Report to Congress

control for the FMC/OIG audit function in effect for the year ended September 30, 2009, was
designed to meet the requirements of the quality control standards established by the Comptroller
General of the United States for a Federal Government audit organization and was complied with
during the year ended to provide the OIG with reasonable assurance of conforming with
applicable auditing standards, policies and procedures. The report in its entirety is posted on the
FMC/OIG web site.

                                  Significant Management Decisions

       If the IG disagrees with any significant management decision, Section 5(a)(12) of the
Inspector General Act requires that such disagreement be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.

       For this reporting period, there were no significant management decisions made on which
the IG disagreed, and management did not revise an earlier decision on an OIG audit
recommendation.

                                          Access to Information

       The IG is to be provided with ready access to all agency records, information or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused, or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

       During the reporting period, the OIG did not encounter any difficulties in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.




       October 1, 2009 – March 31, 2010                                            Page 11
        Inspector General’s Semiannual Report to Congress

                                           Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken. As noted below, eight of these recommendations remain open
past one year.

                           Open Recommendations Over One Year

                                              Report        Open         Elapsed Months
             Short Title                    Issue Date      Rec.(s)      (as of 3/31/10)

   1.   Check Out Process                     1/12/09         7, 8            14
   2.   Privacy & Data Protection             9/22/08         4, 5, 7         17
   3.   FISMA Evaluation for 2008             9/22/08         2               17
   4.   FISMA Evaluation for 2006             10/2/06         9               42
   5.   Accuracy of Enforcement Databases     3/31/06         3               48


                             Contacting the Office of Inspector General

        Employees and the public are encouraged to contact the OIG regarding any incidents of
possible waste, fraud or abuse occurring within FMC programs and operations.          The OIG
telephone number is (202) 523-5863. To report suspected wrongdoing, employees or the public
may call the OIG Hotline on (202) 523-5865. A confidential or anonymous message can be left
24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed directly
to the Inspector General at oig@fmc.gov or to https://www2.fmc.gov/oigcomplaints/ (if the
complainant wishes to remain anonymous).




        October 1, 2009 – March 31, 2010                                         Page 12
        Inspector General’s Semiannual Report to Congress

SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS 

   IG Act
  Reference                     Reporting Requirement                          Page(s)

Section 4(a)(2)          Review of legislation and regulations                    8

Section 5(a)(1)          Significant problems, abuses and deficiencies          None

Section 5(a)(3)          Prior significant recommendations on which              12
                         corrective actions have not been made

Section 5(a)(4)          Matters referred to prosecutive authorities              8

Section 5(a)(5)          Summary of instances where information was              11
                         refused

Section 5(a)(6)          List of audit reports by subject matter                  4

Section 5(a)(7)          Summary of each particularly significant report         4-7

Section 5(a)(8)          Statistical tables showing number of reports and        14
                         dollar value of questioned costs

Section 5(a)(9)          Statistical tables showing number of reports and        15
                         dollar value of recommendations that funds be put
                         to better use

Section 5(a)(10)         Summary of each audit issued before this reporting     None
                         period for which no management decision was
                         made by the end of the reporting period

Section 5(a)(11)         Significant revised management decisions                11

Section 5(a)(12)         Significant management decisions with which the         11
                         inspector general disagrees




       October 1, 2009 – March 31, 2010                                       Page 13
          Inspector General’s Semiannual Report to Congress

                                             TABLE I 
   INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS 

                                                                  Dollar Value

                                                              Questioned   Unsupported
                                                   Number       Cost          Costs
A. For which no management decision has been
   made by the commencement of the reporting            0         0               0
   period

B. Which were issued during the reporting period        0         0               0

   Subtotal (A + B)                                     0         0               0

C. For which a management decision was made             0         0               0
   during the reporting period

   (i)      dollar value of disallowed costs            0         0               0

   (ii)     dollar value of costs not disallowed        0         0               0

D. For which no management decision has been            0         0               0
   made by the end of the reporting period

E. Reports for which no management decision             0         0               0
   was made within six months of issuance




          October 1, 2009 – March 31, 2010                                       Page 14
          Inspector General’s Semiannual Report to Congress

                                             TABLE II 
  INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE 


                                                              Number   Dollar Value

A. For which no management decision has been made               0           0
   by the commencement of the reporting period

B. Which were issued during the reporting period                0           0

   Subtotal (A +B)                                              0           0

C. For which a management decision was made during
   the reporting period                                         0           0

   (i)       dollar value of recommendations that were
             agreed to by management                            0           0

   (ii)      dollar value of recommendations that were          0           0
             not agreed to by management

D. For which no management decision has been made               0           0
   by the end of the reporting period

E. Reports for which no management decision was                 0           0
   made within six months of issuance




          October 1, 2009 – March 31, 2010                                   Page 15
          HOTLINE COMPLAINTS
The success of the OIG mission to prevent fraud, waste and abuse
 depends on the cooperation of FMC employees and the public.

A COMPLAINT CAN BE REPORTED BY CALLING OUR 24-HR DIRECT LINE


                            (202) 523-5865
                                E-MAIL ADDRESS:

     https://www2.fmc.gov/oigcomplaints/
         TO PLACE A COMPLAINT IN WRITING PLEASE MAIL TO:

                Federal Maritime Commission
                Office of Inspector General
                Room 1054
                800 North Capitol Street, NW
                Washington, DC 20573
                To Be Opened By the IG Only

  THE INFORMATION YOU PROVIDE IS CONFIDENTIAL AND YOU CAN BE ANONYMOUS


          HOWEVER, CALLERS ARE ENCOURAGED TO ASSIST THE INSPECTOR GENERAL BY
    SUPPLYING INFORMATION AS TO HOW THEY MAY BE CONTACTED FOR ADDITIONAL INFORMATION
